<html>
<title> - SYNTHETIC DRUGS, REAL DANGER</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                      SYNTHETIC DRUGS, REAL DANGER

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2016

                               __________

                           Serial No. 114-66

                               __________

         Printed for the use of the Committee on the Judiciary


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Available via the World Wide Web: http://judiciary.house.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-165 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      
      
      
      
      
      
      
      
      
      
      
      
      
      

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

Subcommittee on Crime, Terrorism, Homeland Security, and Investigations

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman

                  LOUIE GOHMERT, Texas, Vice-Chairman

STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            PEDRO R. PIERLUISI, Puerto Rico
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TREY GOWDY, South Carolina           KAREN BASS, California
RAUL LABRADOR, Idaho                 CEDRIC RICHMOND, Louisiana
KEN BUCK, Colorado
MIKE BISHOP, Michigan

                     Caroline Lynch, Chief Counsel

                  Joe Graupensperger, Minority Counsel
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                            C O N T E N T S

                              ----------                              

                              MAY 17, 2016

                                                                   Page

                           OPENING STATEMENTS

The Honorable Ken Buck a Representative in Congress from the 
  State of Colorado, and Member, Subcommittee on Crime, 
  Terrorism, Homeland Security, and Investigations...............     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     2
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     3

                               WITNESSES

Louis J. Milione, Deputy Assistant Administrator, Office of 
  Diversion Control, Drug Enforcement Administration
  Oral Testimony.................................................     5
  Prepared Statement.............................................     8
William Smith, Jr., Fraternal Order of Police
  Oral Testimony.................................................    18
  Prepared Statement.............................................    20
Devin Eckhardt, Founder of the Connor Project Foundation
  Oral Testimony.................................................    28
  Prepared Statement.............................................    30
David Earl Nichols, Ph.D., Adjunct Professor of Chemical Biology 
  and Medicinal Chemistry at the University of North Carolina at 
  Chapel Hill
  Oral Testimony.................................................    35
  Prepared Statement.............................................    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Ranking 
  Member, Subcommittee on Crime, Terrorism, Homeland Security, 
  and Investigations........................................54
  
  OFFICIAL HEARING RECORD
          Unprinted Material Submitted for the Hearing Record

Material submitted by the Honorable Judy Chu, a Representative in 
    Congress from the State of California, and Member, Committee on the 
    Judiciary. This material is available at the Subcommittee and can 
    also be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=104923

 
                      SYNTHETIC DRUGS, REAL DANGER

                              ----------                              


                         TUESDAY, MAY 17, 2016

                        House of Representatives

                   Subcommittee on Crime, Terrorism, 
                 Homeland Security, and Investigations

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10 a.m., in room 
2141, Rayburn House Office Building, the Honorable Ken Buck, 
(acting Chairman of the Subcommittee) presiding.
    Present: Representatives Buck, Goodlatte, Gohmert, Bishop, 
Labrador, Conyers, Jackson Lee, and Chu.
    Staff Present: (Majority) Robert Parmiter, Counsel; Scott 
Johnson, Clerk; Zachary Somers, Parliamentarian & General 
Counsel; (Minority) Joe Graupensperger, Minority Counsel; and 
Veronica Eligan, Professional Staff Member.
    Mr. Buck. The Crime, Terrorism, Homeland Security, and 
Investigations Subcommittee will come to order. Without 
objection, the Chair is authorized to declare recesses of the 
Subcommittee at any time. We welcome everyone to this morning's 
hearing on synthetic drugs, and I will begin by recognizing 
myself for an opening statement.
    Last week, the House took significant steps forward in 
combating the opioid epidemic in America. Today, this 
Subcommittee will examine a related but equally important 
issue: the scourge of synthetic drugs in the United States. 
Simply put, synthetic drugs are a prime example of how 
criminals can stay one step ahead of law enforcement.
    Today, parents have to worry not only about a child's 
exposure to illegal drugs, but about synthetic drugs, many of 
which are produced and marketed directly at children and young 
adults. Synthetic cannabinoids, with names like Spice, K2, or 
Scooby Snax, come in brightly-colored packaging, often 
containing cartoon characters or other decorations to make them 
attractive to teenagers.
    Additionally, they are being marketed and sold as legal 
alternatives to marijuana, cocaine, and heroin. Thus young 
people believe them to be safe, legal alternatives. However, 
they are addictive and deadly. That is because these drugs 
while designed to mimic the effects of certain illegal drugs, 
often contain a panoply of additional chemicals which can cause 
increased heart rate, psychosis, and death.
    The professor who is widely credited with first 
synthesizing cannabinoids for research purposes, Dr. John 
Huffman of Clemson University, has said, ``These things are 
dangerous. Anybody who uses them is playing Russian roulette. 
They have profound psychological effects. We never intended 
them for human consumption.''
    Indeed, they are often labeled as not for human 
consumption. But everyone, the manufacturer, seller, and the 
user, knows they are intended to be consumed. Many States have 
banned these substances by adding them to their controlled 
substance schedules which has resulted in a patchwork of State 
laws. Congress has also legislatively scheduled some of these 
substances, most recently in 2012.
    However, the problem is that as soon as the substance is 
scheduled, or the process begins to schedule a substance, the 
manufacturers of these illicit drugs simply change a single 
atom, and the substance is different, and no longer a scheduled 
substance. Its chemical makeup has been altered slightly, and 
though it may have the same effect on the body, it is no longer 
the same chemically. The process has been short circuited. 
However, the need for a Federal response remains clear, since 
most synthetic drugs are manufactured and imported overseas, 
especially from China.
    In just a month, in 2014, synthetic marijuana poisoned more 
than 200 people in my home State of Colorado and killed at 
least one. The Arapahoe County District Attorney George 
Brauchler described people trying to cut their own heads off 
and set themselves on fire after using synthetic drugs. In my 
State, these drugs have been marketed as synthetic marijuana, 
and sold at tobacco shops and convenience stores often for a 
profit of 300 percent or more. It is big business and these 
manufacturers are profiting off of our misery.
    I thank the witnesses for appearing before the Subcommittee 
today and look forward to their participation. I now recognize 
the Ranking Member of the full Committee, Mr. Conyers from 
Michigan, for his opening statement.
    Mr. Conyers. Thank you, Mr. Chairman, and I welcome the 
witnesses. I look forward to an important discussion. We are 
going to talk about synthetic drugs, a problem that is 
primarily affecting adolescents and young adults, and I wish to 
welcome our witnesses and express my gratitude to them for 
taking time to come here, offer their personal experiences and 
insight.
    The abuse of synthetic drugs, or designer drugs, has been 
recognized as far back as the 1980's. Producers of these drugs 
work continuously to create legal alternatives to controlled 
substances like marijuana, cocaine, ecstasy, LSD, and opioids 
that produce similar kinds of highs. Sometimes packaged in 
small, shiny packets with images of cartoon characters printed 
on them, and names like K2, Spice, Vanilla Sky, and Scooby 
Snax, these products are marketed as a harmless good time. 
Unsuspecting teenagers and young adults, who are the primary 
consumers of these products, can purchase so-called synthetic 
marijuana or bath salts at gas stations, convenience stores, 
novelty shops, and over the Internet for further reinforcing 
the erroneous belief that these products are safe.
    However, in many cases, they are more potent and more 
hazardous than the controlled substances that they are meant to 
imitate. The chemical used to create synthetic drugs can be 
toxic to the human body, producing extreme paranoia, violent 
behavior, aggression, hallucinations, seizures, and even death. 
Synthetic drug use has even been linked to heart attacks, 
psychosis, and suicides. Instead of attending their child's 
football game or graduation or helping them complete college 
applications, parents find themselves in hospital rooms praying 
their teenager wakes from a coma or in emergency rooms hoping 
their child will regain their sanity and return to college.
    There are mechanisms in current law to allow for these 
drugs to be evaluated and controlled on a case-by-case basis. 
For instance, the DEA has the ability to temporarily place 
substances on Schedule I, when it is necessary to avoid an 
imminent hazard to public safety.
    However, the DEA is finding it difficult to keep pace with 
the development and production of new substances that are not 
currently illegal. Prosecutors have an additional tool, the 
Analog Enforcement Act of 1986, to prosecute those who produce 
synthetic drugs. This legislation serves as a method of 
criminalizing synthetic drugs without having to ban them 
individually. We in Congress need to learn more about these 
drugs and that is why this hearing is important, and consider 
if legislation is needed. And we must be careful to craft an 
appropriate response that does not over-criminalize or over-
penalize. I thank our witnesses for their time and the benefit 
of their expertise.
    I look forward to a discussion of this troubling issue. I 
thank the Chairman, and yield back.
    Mr. Buck. Thank you, Mr. Conyers. I would now like to 
recognize the full Committee Chairman, Mr. Goodlatte of 
Virginia, for his opening statement.
    Mr. Goodlatte. Thank you, Mr. Chairman. I am pleased to be 
here today as the Judiciary Committee continues its efforts to 
protect the American people from the real and growing danger of 
drug abuse. Last week, this Committee moved five bills through 
the House that will help law enforcement and the treatment 
community address the opioid epidemic, so this hearing is very 
timely. I want to focus my remarks today on the threat of 
synthetic opioids which present a critical threat to the 
American people.
    As we all know, the principle driver of the opioid epidemic 
in this Nation has been the overabundance of prescription pain 
pills in the hands of consumers, especially opioids like 
oxycodone and hydrocodone. America's addiction to opioids has, 
of course, been noticed in the criminal underworld, and 
malefactors have taken big steps to profit off America's pain.
    One way they have done this is through the production of 
synthetic opioids, including counterfeit prescription 
medications laced with fentanyl and fentanyl derivatives. For 
those who have been paying attention to this Committee's work, 
fentanyl is an opioid pain medication which can be 100 times 
more powerful than morphine.
    To put that into perspective, Heroin is typically three 
times as powerful as morphine. Fentanyl is intended to be used 
to treat extreme pain associated with late stage cancer and 
other significant health problems. It is not intended to be 
used recreationally, yet it is, and with the rise of synthetic 
opioids, it is increasingly being used unknowingly.
    Often drug traffickers will cut heroin with fentanyl to 
produce a more potent high. That has led to a rash of deaths 
across the country because of fentanyl's potency. In recent 
legislation, this Committee included language to provide for a 
sentencing enhancement for any offender who traffics in heroin 
cut with fentanyl.
    With respect to synthetic opioids, fentanyl is also widely 
used. The profit margin is shocking. Less than a milligram of 
fentanyl can be lethal. That means a kilogram of fentanyl can 
generate enormous profits for the illicit trafficker, sometimes 
upward of a million dollars, so we have a problem. Between 2013 
and 2014, the rate of drug overdose deaths involving synthetic 
opioids nearly doubled. According to the Centers for Disease 
Control and Prevention, a substantial portion of this increase 
appears to be related to the availability of illicit fentanyl.
    According to the DEA's 2015 National Drug Threat 
Assessment, Mexico is the primary source country for illicitly 
produced fentanyl in the United States. However, pharmaceutical 
fentanyl has also been diverted from the legitimate supply 
chain and into the illicit market. Some derivatives and analogs 
of fentanyl are manufactured in China and shipped to the United 
States. Drug traffickers and associated profiteers are 
continuously developing new ways to exploit the American 
market. Evidence of new opioid drugs, some more powerful than 
fentanyl, are turning up on the American street corners.
    For example, W18, a synthetic opioid potentially 100 times 
more powerful than fentanyl, which law enforcement has called 
the next deadly synthetic street drug. We are under siege. It 
is time for Congress to act, and this hearing represents a good 
first step. I thank the witnesses for their testimony, and look 
forward to the responses to our questions.
    Mr. Buck. I thank the Chair. Without objection, other 
Member's opening statements can be made part of the record.
    Mr. Goodlatte. Thank you, sir. I appreciate that very much.
    Mr. Buck. We have a very distinguished panel today. I will 
begin by swearing in our witnesses before introducing them. If 
you would all please rise. Raise your right hand.
    Do you swear that the testimony you are about to give is 
the truth, the whole truth, and nothing but the truth, so help 
you God? Thank you, you may be seated.
    Let the record reflect that all of the witnesses responded 
in the affirmative. Mr. Louis Milione, is that correct?
    Mr. Milione. Yes.
    Mr. Buck. Special Agent Louis Milione is a deputy assistant 
administrator for the United States Drug Enforcement 
Administration's Office of Diversion Control, where he has 
served since October 2015. Mr. Milione acts as the principle 
advisor to the DEA administrator on matters pertaining to the 
regulation of programs relating to the diversion of legally 
produced controlled substances and listed chemicals. Mr. 
Milione began his career with the Drug Enforcement 
Administration in 1997, and holds a Bachelor of Arts degree 
from Villanova University, and a law degree from Rutgers 
University School of Law.
    Officer William Smith, Jr., is an officer with the 
Washington, D.C. Metropolitan Police Department. He has over 20 
years of law enforcement experience, much of which has focused 
on narcotics.
    Mr. Devin Eckhardt is the father of Connor Eckhardt, who 
died tragically after smoking synthetic marijuana. Mr. Eckhardt 
is the founder of the Connor Project, and has addressed the 
United Nations to raise awareness globally about the dangers of 
synthetic drug use. He joins us today along with his wife, 
Veronica, in continuation of that effort.
    Mr. David Nichols currently serves as an adjunct professor 
of chemical biology and medicinal chemistry at the University 
of North Carolina at Chapel Hill. He has been recognized as a 
distinguished professor emeritus at Perdue University, and as 
an adjunct professor emeritus of pharmacology and toxicology at 
Indiana University.
    Dr. Nichols holds a Bachelor of Science degree in chemistry 
from the University of Cincinnati, a PhD in medicinal chemistry 
from the University of Iowa, and was a post-doctoral fellow in 
pharmacology at the University of Iowa.
    We will now proceed. I will now recognize each of the 
witnesses for their opening statement, which will be limited to 
5 minutes. Mr. Milione?

TESTIMONY OF LOUIS J. MILIONE, DEPUTY ASSISTANT ADMINISTRATOR, 
  OFFICE OF DIVERSION CONTROL, DRUG ENFORCEMENT ADMINISTRATION

    Mr. Milione. Thank you, Congressman Buck, distinguished 
Members of the Committee. Synthetic cannabinoids, synthetic 
cathinones, deadly fentanyl analogs, and other toxic synthetic 
substances are flooding the United States, putting unsuspecting 
users at risk of death and permanent injury. DEA sees this drug 
threat as second only to the opioid scourge that is currently 
devastating our country. Synthetic cannabinoids and cathinones 
are unpredictable, untested substances placed in colorfully 
market packaging and then marketed to our country's use as a 
legal high.
    Emergency room doctors report a wide range of life-
threatening side effects, including brain damage, cardiac 
arrest, kidney failure, and extreme psychosis. Synthetic 
cannabinoids and cathinones are sold openly in gas stations, 
convenience stores, head shops, and over the Internet from 
domestic and foreign sources.
    Fentanyl analogs are a fast growing, particularly troubling 
part of this synthetic drug threat. Here you have the dangerous 
convergence of synthetic drugs with this country's opioid 
epidemic. With Fentanyl analogs, you have substances many times 
more potent than heroin that are being sold as heroin, mixed 
with heroin, or pressed into pill form and sold as prescription 
drugs. Fentanyl analogs are so deadly that a miniscule amount 
can kill an unsuspecting user. They can be ordered from Asia 
over the Internet and delivered directly to your home. Because 
of the massive profit potential, Mexican cartels are 
aggressively purchasing fentanyl and fentanyl analogs from 
Asia, shipping it into Mexico, mixing it with other substances, 
and distributing it throughout the United States.
    For all of us in the DEA, for all of our great Federal, 
State, and local law enforcement partners, for all the 
dedicated prosecutors around this country, our primary mission 
is to protect the public. In trying to protect the public from 
this synthetic drug threat, here is the most frustrating part. 
The foreign-based manufacturers and domestic pied pipers of 
this poison often operate with impunity because they exploit 
loopholes in the analog provisions of the Controlled Substances 
Act, and capitalize on the lengthy, resource intensive, 
reactive process required to schedule either permanently or 
temporarily these dangerous substances.
    As we speak, criminal chemists in foreign countries are 
tweaking the molecular structure of controlled synthetics, 
keeping the same pharmacologic properties as the controlled 
substance, but helping the manufacturers and distributors avoid 
criminal exposure because of the altered molecular structure. 
We see these newly created synthetic drugs by the dozens every 
year. It is important to remember that these new dangerous 
substance get piled on top of the hundreds that we have already 
determined need to be controlled based on overdoses, deaths, 
and law enforcement encounters.
    DEA moves to temporarily schedule as many of this growing 
backlog as quickly as we can, but for each substance that 
process averages between three and 4 months. Once temporarily 
scheduled, we seek HHS' evaluation for permanent scheduling, a 
process that can take at least several years for each 
substance.
    Despite our best efforts, DEA cannot control these 
substances at a pace that will prevent additional overdoses and 
deaths. We at the DEA are very grateful for all the legislative 
and scheduling tools Congress has given us over the years. We 
have had success investigating, prosecuting, and convicting the 
traffickers of these dangerous substances using the Controlled 
Substances Act when the synthetic drugs are placed in Schedule 
I. We have also successfully used the Analog Act for substances 
not placed in Schedule I. However, today's synthetic drug 
crisis has outgrown the Analog Act. Thirty years ago, when the 
act was passed by Congress, there were far fewer analog users, 
and fewer traffickers than exist today. The trafficking 
networks that existed in 1986 were significantly less 
sophisticated than the transnational criminal networks 
currently operating.
    We will continue to do everything we can, working with the 
tools you generously have given us to bring these substances 
under control and protect the public, but we are many steps 
behind the traffickers and need your help. In the short term, 
this esteemed body could provide DEA and our law enforcement 
partners throughout the country immediate relief by placing the 
hundreds of substances we have determined to be dangerous into 
Schedule I.
    This would allow us to keep these synthetic drugs out of 
the country, get them off the shelves of retail stores, and 
bring to justice not the user population, but the egregious 
domestic and foreign traffickers preying on our youth, 
exploiting human frailty for profit, and flooding our country 
with these dangerous drugs. In the long term, we would welcome 
amendments to the Controlled Substances Analog Act that would 
align the act with the current threat, and/or perhaps other 
tools that would allow us to more quickly bring these drugs 
under control.
    We stand ready to work with you, provide you any assistance 
we can, and address any of your concerns. One concern that has 
been raised is that placing hundreds of dangerous synthetic 
drugs into Schedule I will impede legitimate scientific 
research. Here are several facts that may inform that concern. 
DEA has never rejected a proposal for bona fide research with 
any Schedule I substance. Currently, there are 469 approved 
Schedule I researchers, and many have multiple approved 
protocols to study different Schedule I substances.
    During the last year, it has taken an average of 32 days 
for DEA to approve a researcher's Schedule I application once 
that researcher has received FDA approval, a little more than 4 
weeks. I would argue these are reasonable requirements when 
balanced with our duty to protect the public from these highly 
unstable and often deadly drugs. The DEA is committed to doing 
everything we can to address this threat. We look forward to 
working with Congress, with all our partners in the law 
enforcement, medical, and scientific communities to improve our 
effectiveness. Thank you very much for this opportunity, and I 
look forward to answering any questions you have.
    [The prepared statement of Mr. Milione follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               __________
                               
    Mr. Buck. Thank you, Special Agent Milione.
    Mr. Milione. Thank you.
    Mr. Buck. Officer William Smith, I recognize you for 5 
minutes.
    Mr. Smith. Good morning Mr. Chairman, distinguished Members 
of the Subcommittee on Crime, Terrorism, Homeland Security 
Investigations.
    Mr. Buck. Would you pull the microphone closer please? I am 
sorry to interrupt you. Would you pull the microphone a little 
closer to you?

               TESTIMONY OF WILLIAM SMITH, JR., 
                   FRATERNAL ORDER OF POLICE

    Mr. Smith. I apologize. As first responders who respond to 
the individuals under the influence of synthetic drugs, the 
side effects of synthetic drugs are very common and similar to 
another drug which law enforcement officers encounter, which is 
phencyclidine, or PCP. As the Committee can see, I am not a 
small officer, and have dealt with individuals both underneath 
these synthetic drugs and PCP. And let it be known, even at my 
stature at times, it has been very difficult for myself and 
other officers to restrain these individuals.
    Individuals under the influence of these substances have an 
absolute almost supernatural human strength and de-increased 
pain tolerance, which can lead to officers and other first 
responders being injured when dealing with these individuals. 
According to the Drug Enforcement Administration, poison 
control has seen a 229 percent spike in calls in relationship 
to synthetic drugs.
    Hundreds of these synthetic drugs are manufactured overseas 
in China and Mexico with no regulations or medical purposes. 
There has been reported 49,000 new chemicals used in these 
synthetic drugs. This is costing children and teenagers their 
lives. Also, these synthetic drugs are designed to keep law 
enforcement from finding the origin of the chemicals. The DEA 
testified this past fall, in front of the House Energy and 
Commerce Committee, that they are three steps behind the 
criminals when it comes to synthetics and analogs. In the past 
few years, synthetic marijuana has become the popular choice 
for synthetic drugs. It is designed to mimic the effects of 
organic marijuana, and has a wide commercial availability. It 
can be bought at local stores for as little as $5 apiece, which 
made it popular among young people and the homeless.
    This is because it is sold under interesting brand names, 
such as Bizarro, K2, Spice, and Scooby Snax. These synthetic 
drugs are usually manufactured in foreign facilities in China 
and Mexico, with an ever changing chemical cocktail. All 50 
states have outlawed synthetic drugs in some way. The problem 
is that the ever changing chemical makeup. The manufacturers of 
these synthetic drugs keep changing the chemical makeup to try 
to skirt the law and claim that their product are not illegal.
    Synthetic marijuana has two to five times the strength, 
amount of THC than normal marijuana, and the availability and 
high use of drugs in recent years have led to a 1400 percent 
increase in hospital visits from 2009 to 2012. Commissioner 
William Bratton of the city of New York Police Department 
stated, ``This is the scourge on our society, affecting the 
most disadvantaged neighborhoods, our most challenged citizens.
    It affects teenagers of public housing, homeless city 
shelters, and is quite literally flooding our streets.'' In the 
previous session of Congress, the FOP supported legislation to 
add synthetic bath salts, marijuana, and other synthetic drugs 
to DEA's schedule of controlled substance, but the chemical 
manufacturers have found loopholes for manufacturing and 
distributing these drugs, or analog drugs, because they are 
similar, but not chemically identical to the scheduled 
substances. With the loopholes, these manufacturers and 
distributors sell; and abusers of these synthetic substance all 
know exactly what to do with them. They ingest them, snort them 
to get a dangerous and unpredictable high.
    In the past few years, we have found even more--seen more 
new drug of fentanyl. The synthetic fentanyl used by doctors is 
the most powerful opioids in medicine. However according to 
DEA, much of what is being found on the street is not diverted 
from hospitals, but rather sourced from China and Mexico. 
Frequently people buy it on the street with no idea it is 
fentanyl.
    It is reported to be 100 to 200 times stronger than heroin. 
Just a quarter of a gram or a milligram, .25 milligrams, can 
kill you. To put it in perspective, just how little .25 
milligrams is, a typical baby aspirin is 81 milligrams. If you 
cut that 81 milligram tablet into 324 pieces, one of these 
pieces would be equivalent to a quarter milligram. Admitting 
[spelled phonetically] the 80 percent of all fentanyl seizures 
in 2014 were concentrated in just 10 states: Ohio, 
Massachusetts, Pennsylvania, Maryland, New Jersey, Kentucky, 
Virginia, Florida, New Hampshire, and Indiana. I would like to 
thank the Committee for hearing our national FOP 
representation.
    [The prepared statement of Mr. Smith follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                   __________
                                   
    Mr. Buck. Thank you, Officer Smith. I now recognize Mr. 
Eckhardt. If you could turn your microphone on for 5 minutes. 
Thank you very much.

            TESTIMONY OF DEVIN ECKHARDT, FOUNDER OF 
                 THE CONNOR PROJECT FOUNDATION

    Mr. Eckhardt. Before I begin, I would like to make sure 
that each of the Committee Members has a copy of the brochure. 
Thank you. As it was stated, my name is Devin Eckhardt, and I 
am joined by my wife Veronica. And for very personal reasons, 
we chose to join you here today as you dedicate some time to 
better understanding the threats and issues surrounding new 
psychoactive substances, sometimes referred to as synthetic 
designer drugs, the epidemic rate at which they are spreading, 
the severity of their destructive effects both within the U.S. 
and globally, and the deadly impact they are having upon our 
countries, our communities and our families.
    And it is our sincere hope and prayer that each of you will 
leverage both your individual and collective power to do more 
than simply discuss this growing problem, but rather you will 
choose to take action now and make changes necessary to 
eradicate these deadly poisons and their proliferation. It is 
my hope that my testimony will help provide some heart to the 
head knowledge that you hear so frequently in these 
conversations.
    Sadly my wife, family, and I tragically know all too well 
the devastating impact of synthetic drugs. In July of 2014, our 
19 year old son Connor was a bright, vibrant young man with a 
full life ahead of him. He was really what most would have 
considered the all-American young boy. He had a great job. He 
was preparing to go back to college. He loved music, surfing, 
the outdoors. He had lots of friends, and of course he was 
deeply loved by his family, his sisters, his mother, and of 
course me, his father.
    This first photo here was a family shot taken July 5th of 
2014. It was the last time we would be together like this as a 
family. Eight days later, Connor was with a new friend. He made 
the seemingly innocent decision. He agreed to try something 
called Spice, a synthetic poison, and the result was the second 
photo there. After many days in the hospital with our son in a 
coma, he was ultimately declared brain dead. Connor died July 
16th, 2014, after one smoke of a legal high purchased at a 
local store.
    At the time, we were unaware of NPSs, and we made the 
decision to share our story publically, to be painfully 
transparent and naked with our tragedy before a watching world, 
with the simple hopes that perhaps it might change one person's 
life. It might spare them and their family the horrific 
circumstances that we were facing and that we now live with 
each day.
    Since the death of our son 671 days ago, we have met far 
too many parents who have also lost their children to synthetic 
drugs like Spice. And through our outreach, speaking, and 
education efforts over these past 671 days, we have 
communicated with literally hundreds of thousands of people 
throughout the United States and around the world who have lost 
loved ones or had their lives tragically destroyed by synthetic 
drugs.
    Unfortunately, what happened to Connor is not unique. Far 
too many people have suffered irreparable harm, including 
death, as a result of trying or using these poisons. However, 
what is unique about his story is how it is received an 
overwhelming global response to what we have shared publically 
through social media, news interviews, TV, radio broadcasts 
around the world. His story has cut through the racial, 
socioeconomic, geographic, and religious barriers typically 
encountered. We know that NPSs are affecting everyone 
everywhere. We are not just one voice. Connor is not just one 
face or some statistic. We represent the voice and the face of 
the many others just like us.
    We have had the opportunity to reach millions of people on 
this subject. We have been interviewed by most of the major 
news and media outlets around the U.S. and globally, and of 
course we have leveraged social media. We have had individually 
unique Facebook posts that have reached millions at a time, 
with one reaching over 37 million people globally. We have had 
the opportunity to speak in many settings. We have worked with 
and spoken to senators, legislators, law enforcement officials, 
and many in government. We even met with a lord from the House 
of Lords in the U.K. this past summer as we were there on this 
subject.
    We have worked with numerous organizations in an effort to 
educate and increase awareness on the dangers of synthetic 
drugs, and we have worked to change the laws so that these 
poisons are removed from our streets, our stores, and our 
communities, but more must be done. The problem is getting 
worse. Hundreds of new synthetic drug compounds have appeared 
around the world in the last few years, sometimes spreading at 
the rate of a new drug per week, and we are allowing these to 
come into our country.
    Illicit drug manufacturers are constantly working and 
changing the formulas, developing new chemical derivatives in 
order to evade the laws, and frankly they are working faster 
than we are. The issue of NPSs needs to be addressed and it 
needs to be done now.
    When this congressional gathering has ended, you return 
home. You will return to your families, your children, those 
you love and care for. When we return home, we return to a 
family that has been forever changed, because of the death of 
our beloved son as the result of synthetic drugs. As long as 
the people around the world pushing these poisons into our 
communities know that there are little or no consequence for 
their actions, and they do know this, we will continue to see 
the spread of synthetic drugs and the terrible harm they are 
bringing to our families, and to our youth and communities. You 
have the power to do something about this.
    You are in positions of influence and leadership, and we 
are pleading with you to please take action. Do not just talk 
about and debate the issues. Bring about change that will get 
these substances out of our communities, and deal appropriately 
with those behind the manufacturing and distribution of NPSs 
globally. Thank for your time and your consideration on this.
    [The prepared statement of Mr. Eckhardt follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
                               __________
                               
    Mr. Buck. Thank you, Mr. Eckhardt, thank you for your 
courage, and I appreciate your wife being here also. Thank you. 
Dr. Nichols, I recognize you for 5 minutes.

 TESTIMONY OF DAVID EARL NICHOLS, Ph.D., ADJUNCT PROFESSOR OF 
 CHEMICAL BIOLOGY AND MEDICINAL CHEMISTRY AT THE UNIVERSITY OF 
                 NORTH CAROLINA AT CHAPEL HILL

    Mr. Nichols. Congressman Buck, is my microphone on? 
Congressman Buck, Members of the Committee, thank you for the 
opportunity to appear today. During my career, I worked with 
synthetic drugs, possessing a researcher's Schedule I DEA 
registration. My goal was to understand how the structure of a 
molecule engaged a biological target. Thus, better 
understanding how these substances act in the brain. I am very 
concerned about the potential harms to human health presented 
by synthetic drugs. Their availability requires a response, 
including regulation.
    Yet I do not believe that the proposed legislation would 
have prevented the recent emergence of Spice mixtures. Rather 
they focus on already known controlled substance types. We 
badly need reasonable approaches to controlling new chemo types 
of synthetic substances. The challenge is to preserve 
researcher's needs while also stemming the flow of dangerous 
synthetic chemicals.
    An appropriate response should consider three points. 
First, allowing research of potential therapeutic uses. Second, 
legislation should be guided by rigorous science. And third, 
the impact on mass incarceration, especially in cases where 
substances have not been fully vetted by the scientific 
community. Few investigators will pursue research with Schedule 
I drugs. Various researching Schedule I substances discourage 
engagement. Obtaining a Schedule I license is not a trivial 
matter, and a researcher must be very motivated to obtain one, 
even if the investigator requires only small drug amounts that 
do not represent a potential for diversion.
    In most cases, researchers are funded, for example, by 
NIDA, to study only the deleterious properties of a specific 
drug of abuse. But it is also important to have funding 
available for research to identify beneficial properties of 
Schedule I substances, as with recent medical marijuana.
    The costs and regulatory burdens of a Schedule I license 
deter research that might lead to new medicines. Research on 
Schedule I drugs is important, because in the last decade, 
clinical studies have indicated that psilocybin, a Schedule I 
drug, may have unique therapeutic efficacy in treating anxiety, 
depression and addiction to alcohol and nicotine.
    As another example, Professor Charles Nichols at LSU 
decided to study the receptor targets of hallucinogens before 
he had a Schedule I license. The only hallucinogen available 
without a license was called DOI. He discovered, quite by 
accident, that DOI has potent anti-inflammatory properties, 
indicating potential efficacy in treating cardiovascular 
disease and asthma. Had DOI been a Schedule I, he never would 
have discovered this therapeutic breakthrough. Most 
pharmaceutical companies have a ban in research on novel drugs 
for depression, bipolar disorder, obsessive compulsive 
disorder, and others. They have unknown causes, the research is 
extremely expensive with a low probability of success. 
Ironically, the kinds of substances we are concerned with here 
today act in the brain, and it is quite possible that new 
medicines will result from more research on them. Any 
responsible legislation should protect research that might lead 
to the discovery of new medicines.
    Without solid scientific evidence, it is unwise to schedule 
new molecules with untested potential. Sometimes changing a 
single atom on a molecule can dramatically alter its 
pharmacology. Superficial comparisons of chemical structure 
resemblance or predicted pharmacological effects, as in some 
proposed bills, are not a reliable basis for Schedule I 
classification. For example, bupropion or Wellbutrin, an 
effective anti-depressant, resembles Cathinone, yet it has no 
abuse potential.
    There are hundreds of thousands of synthetic compounds that 
could be made, and we still know very little about just a few 
of the most recent ones. Also, there is no schedule category 
for drugs that have no known medical value, but which have also 
not been shown to have high abuse potential. We should 
carefully research compounds flagged by law enforcement by 
scheduling only those who have demonstrated public health and 
safety risks. Input from the scientific medical community would 
preclude the scheduling of compounds with no demonstrated 
public health dangers, preventing needless prosecution and 
incarceration of individuals for using these substances. 
Persons who manufacture and distribute these substances that 
harm human health should be held accountable.
    But many people today do not believe that making users 
criminals for simple possession is appropriate. There is a 
consensus developing that use of psychoactive substances is a 
public health problem, not a criminal matter. The war on drugs 
has been largely unsuccessful in preventing drug use, and has 
contributed to our country having the largest prison population 
in the world, a large percentage of whom were incarcerated as a 
result of non-violent drug offenses.
    In summary, the proliferation of new synthetic substances 
represents a great threat to the health of our youth. And 
regulation must be a component to the solution of this problem. 
But I strongly believe drug control and scheduling decisions 
should be grounded in the best science. There must be balance 
between the needs of research and enforcement, so that 
potential new therapeutic discoveries are not lost by 
restricting access to novel compounds. Humans and adolescents 
in particular, are known to be curious and to experiment. But 
most pass through that phase without serious consequences. 
Draconian penalties and felony convictions for use only add to 
the problem. Thank you.
    [The prepared statement of Mr. Nichols follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
                               
    Mr. Buck. Thank you, Dr. Nichols. We will now proceed under 
the 5 minute rule with questions for the witnesses. And I will 
recognize the Vice-Chairman, Mr. Gohmert from Texas.
    Mr. Gohmert. Thank you, Mr. Chair. I thank all the witness 
for being here. It is an important subject. And, Mr. Eckhardt, 
I know this is obviously very difficult for you. What a 
handsome young man you and your wife had, obviously brought a 
lot of joy. You mentioned that he bought it legally. You ever 
find out how he heard about this, and where he purchased it?
    Mr. Eckhardt. Connor was with a new friend that day. He had 
actually been offered--think it is on.
    Mr. Gohmert. Yeah. Think it is.
    Mr. Eckhardt. Can you hear me okay?
    Mr. Gohmert. Yeah.
    Mr. Eckhardt. He had actually been offered marijuana. He 
declined; he did not want that, he did not want to be around 
that. And as an alternative, the synthetic drugs were suggested 
and they were purchased at a local smoke shop, along with, you 
know, other tobacco products. And I think truly was viewed as a 
safe alternative.
    Mr. Gohmert. It was legal?
    Mr. Eckhardt. Legal.
    Mr. Gohmert. Yeah, so it must be okay.
    Mr. Eckhardt. And I think, you know, there is youth, find 
themselves often in situations of peer pressure, and he was 
declining one thing, and it was a way to concede.
    Mr. Gohmert. He was acting admirably. Relying on his 
government that if it was too harmful, it would be illegal, 
obviously. And obviously, as you and your wife have been doing, 
you have been raising awareness. If he had been aware of the 
dangers, obviously he was sharp enough, and moral enough that 
he would have turned it down, and just did not know the risk. 
Mr. Milione, how big is the market for illicit prescription 
drugs compared to heroin?
    Mr. Milione. The market for prescription illicit or 
prescription opioids is massive. It would be hard to put a 
number on it. If you put it in overdose numbers, we are talking 
18,000, 19,000 overdoses in 1 year of prescription opioids. 
With heroin, you have almost 9,000. That is a trend, heroin is 
trending up. You have a massive prescription opioid problem.
    Mr. Gohmert. So is the prescription opioid trending down, 
or just heroin trending up?
    Mr. Milione. We do not see a downward trend in prescription 
opioid abuse or overdoses. That is trending up, not at quite 
the rate that heroin is trending up. They are both trending up; 
heroin is intersecting unfortunately, on that graph.
    Mr. Gohmert. Is it not interesting, as our Federal 
Government is forcing people to turn away from God, they are 
searching for answers in other places that are not so good for 
them? Do you know what the profit margin for a kilogram of a 
synthetic cannabinoid is?
    Mr. Milione. It is a massive profit margin. So for maybe 
$1,500, $1,000, up to $2,000, you could buy a kilogram of 
synthetic substances that is a synthetic cannabinoid, and 13 
kilograms of, let's say marshmallow leaf. And you can turn that 
into about $250,000, that initial $1,000 to $1,500 into 
$250,000 of profit.
    Mr. Gohmert. Dr. Nichols, you wrote an article in January 
of 2011, where you expressed remorse because someone had used 
your published research to produce a substance that caused six 
deaths. How could they have used your article to produce that? 
I mean, did you go into that kind of detail? It is hard to 
believe they could have taken your article and--what is that?
    Mr. Nichols. The situation is, the chemists who were 
involved in making these substances are quite accomplished. I 
think many of them must have PhDs. So we publish in the open 
scientific literature, and I had been doing studies of ecstasy, 
its mechanism of action.
    Mr. Gohmert. Right.
    Mr. Nichols. So one of the compounds we had made was called 
MTA. And in the assay that we used was a rad assay. It really 
identified compounds that caused the release of a brain 
transmitter called serotonin. And that does not represent the 
effects of ecstasy, but somebody, apparently in the 
Netherlands, saw that paper we published, and actually we had 
published that it was a potential anti-depressant, when we 
actually looked at it. They saw we had made it.
    The synthetic methods are in all the published literature. 
So they simply made a batch of it, and ironically put it into 
tablets called flatliners. This was really the first case 
where--and I was really shocked, because all medicinal chemists 
who work in this field publish their work in the open 
literature, and if you work with cocaine analogs, or 
hallucinogens, or DMA analogues, it is all out there. The 
methods are on the papers. It just takes someone to mine that 
literature to find the kind of compound they want to work with.
    Mr. Gohmert. But you were not publishing the recipe or 
anything?
    Mr. Nichols. It is in the scientific publication.
    Mr. Gohmert. But not in your article. That is what----
    Mr. Nichols. No, not in the essay, no.
    Mr. Gohmert. But I am just saying. I think you blame 
yourself too much for that. But I appreciate the time. Thank 
you, I yield back.
    Mr. Buck. Chair recognizes the Ranking Member from Texas, 
Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you very much. This is 
a very important hearing. I want to thank each of the 
witnesses; Mr. Milione and Mr. Smith, Mr. Eckhardt, and 
certainly Dr. Nichols. Thank you so very much. I hope I 
pronounced Mr. Milione almost correctly.
    I was previously in a meeting, and I will have to go to 
another meeting dealing with criminal justice, but this is a 
very important hearing. Let me thank the Chairman as well, Mr. 
Buck. Let me also thank the Chairman of the Subcommittee, Mr. 
Sensenbrenner, and the Chairman of the full Committee, and Mr. 
Conyers, the Ranking Member of the full Committee.
    I am grateful for the work that we have done to organize 
this hearing, and bring the use and abuse of synthetic drugs to 
the attention to the Subcommittee on Crime. We have several 
witnesses here today who will provide us with their own 
perspectives regarding the effects and dangers of synthetic 
drugs. My home State of Texas has been significantly affected 
by the proliferation of synthetic drugs.
    Kush is a street name for the popular illegal substance in 
Houston right now. And it has caused great harm. It is a 
designer drug made from combinations of synthetic chemical, 
sprayed on plant material, then packaged like candy, smoked 
like marijuana. It has no constraints, no regulations, no 
guidelines. Kush is typically many times more potent than 
natural marijuana, and produces physical and psychological 
effects that are uncharacteristic of natural marijuana use. 
People who have used Kush have suffered paralysis, brain 
damage, heart attacks, and even death. Kush is but one name, or 
supposed brand name for the synthetic marijuana.
    And law enforcement agencies, including those in Texas and 
across the Nation, have identified hundreds of names given to 
synthetic marijuana. This Committee hearing is important for 
that reason. We need to get the facts. Whatever we generate in 
legislation should be confined by the facts.
    We do not want to expand the fishnet, if you will, on 
individuals who happen to be either attracted, addicted, or 
using this drug. And I hope that we will have enough facts in 
our record to be able to craft a sufficient Federal response to 
this very important issue. Mr. Chairman, I am going to ask 
unanimous consent that the rest of my statement be included in 
the record.
    Mr. Buck. Without objection.
    [The prepared statement of Ms. Jackson Lee follows:]
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
Representative in Congress from the State of Texas, and Ranking Member, 
Subcommittee on Crime, Terrorism, Homeland Security, and Investigations
    Thank you, Mr. Chairman, and Ranking Member Conyers.
    I am grateful for the work you have done to organize this hearing 
and bring the use and abuse of synthetic drugs to the attention of the 
Subcommittee on Crime.
    We have several witnesses here today, who will provide us with 
their own unique perspectives regarding the effects and dangers of 
synthetic drugs.
    My home state of Texas has been significantly affected by the 
proliferation of synthetic drugs.
    ``Kush'' is the street name for the most popular illegal substance 
in Houston right now.
    It is a designer drug made from combinations of synthetic chemicals 
sprayed on plant material, then packaged like candy, and smoked like 
marijuana.
    Kush is typically many times more potent than natural marijuana and 
produces physical and psychological effects that are uncharacteristic 
of natural marijuana use.
    People who have used Kush have suffered paralysis, brain damage, 
heart attacks and even death.
    Kush is but one name, or supposed brand name, for synthetic 
marijuana.
    Law enforcement agencies across the Nation have identified hundreds 
of names given to synthetic marijuana.
    Synthetic marijuana has become increasingly popular with teenagers 
as young as twelve and twenty-somethings.
    According to the DEA, it is the second-most abused substance by 
twelfth-graders, and overdoses of the drug are increasing in Texas.
    Synthetic marijuana has been linked to severe paranoia, psychotic 
episodes, violent delusions, kidney damage, suicidal thoughts, and 
self-mutilation.
    Two weeks ago, a man commandeered a D.C. transit bus, then, struck 
and killed a man.
    It was later determined that the individual who took over the bus 
smoked synthetic marijuana and PCP before the incident.
    But, there are six other classes of synthetic drugs other than the 
class to which synthetic marijuana belongs.
    A study conducted by the University of Michigan in 2014 revealed 
that synthetic drugs were the second most used substances amongst 
students in grades eight through twelve.
    People are marketing synthetic drugs to our children with colorful 
packaging covered with cartoon characters.
    Without knowing what they are ingesting, kids believe these 
substances pose no danger to them physically or legally because they 
can easily walk into a gas station or convenience store and purchase 
them with no hassle involved.
    In reality, the dangers of using synthetic drugs are often greater 
than using the actual drug.
    The physical and psychological effects produced by synthetic drugs 
are wholly unpredictable.
    Those who overdose on these substances are also at greater risk of 
dying because doctors and first responders must first identify the 
source of the problem, preventing them from rendering the appropriate 
medical treatment in a timely manner, if, at all.
    We all share common goals--to protect our children and shield them 
from dangers they may not be able to understand or appreciate.
    We must consider all possible solutions, including treatment and 
prevention.
    As we did when the House acted last week to pass legislation 
addressing the opioid epidemic, we must adopt comprehensive approaches 
to issues of synthetic drug abuse.
    I hope the information we receive today will help us formulate 
appropriate and even-handed solutions that address more than just the 
criminal aspects of this problem.
    Thank you.
                               __________

    Ms. Jackson Lee. And I am also going to ask that my 
questions for the witnesses be submitted for answers to 
comment. I ask unanimous consent, and my questions submitted to 
the witnesses that I may present.
    Mr. Buck. Without objection, so ordered.
    Ms. Jackson Lee. And I am going to propose a question to 
Dr. Nichols. I am concerned about making sure that we are not 
so broad that we in fact do not appropriately respond to 
synthetic drugs. And let me, by the way, in a moment of 
personal privilege, my daughter graduated with honors from the 
University of North Carolina, Chapel Hill, so you are elevated 
even higher in my eyesight.
    Why is it important, Dr. Nichols, that the scientific 
experts in the fields that study synthetic compounds play a 
role in determining the appropriate response in terms of drug 
scheduling and other controlled measures? And might I ask that 
you describe any promising research that you are aware of on 
these issues.
    Mr. Nichols. Well the legislation that I have seen in 
general basically tries to expand the landscape around known 
compounds, and I have done patent legislation, and I work with 
patents. And in patents, pharmaceutical companies will claim a 
genus of compounds. And in a recent case, there were 58 
trillion compounds. So the possibility for harm is sort of 
unimaginable.
    So I think we really need expert medicinal chemists and 
neuro-pharmacologists to look at these compounds that have been 
proposed for scheduling to really determine. I know I have seen 
some of the proposed bills, and they basically try to think of 
everything possible. One of the comments I made was, we are 
talking about hallucinogens, cathinone-analogues, fentanyl-
analogues, and synthetic cannabinoid compounds. But what if a 
new type of drug hits the street? There is no legislation that 
would take care of a new chemo type.
    So then, all of a sudden, we have another cathinone. Some 
Chinese chemist plays around a lab, finds something we have 
never seen before, and now we have another scourge. So the laws 
that are proposed really are sort of hindsight laws, based on, 
if all you have is a hammer, everything looks like a nail. I 
think we need some out of the box thinking in terms of ways to 
approach this that would cut off the possibility for new chemo 
types of drugs that we have not seen it, and would be more 
careful in circumscribing the things that we have.
    Using expertise, there is lots of expertise in the American 
chemical society, in pharmacology societies, that could sit 
down and look at these and say, ``These are problems, these 
need some evidence,'' rather than just casting a wide net that 
is going to create all kinds of problems. Many of the compounds 
may not even be harmful to human health.
    So it is kind of an unfocused shotgun approach that I think 
could be much more focused on real problems with some 
expertise. And I just have not seen that brought to bear.
    Ms. Jackson Lee. Let me thank you. I know the other 
witnesses will have some instructive information that I will 
draw from your answers. Dr. Nichols, I think you have laid a 
landscape, or parameters, that we should seriously look at. We 
just had successful set of legislative initiatives on opioid, 
and I think it was based on a lot of thought, a lot of 
hearings, opioid and heroin. We passed a series of about 18 
bills last week that all of us can find satisfaction in the way 
we approached it.
    The Judiciary Committee bill did not have any mandatory 
minimums at all. It was treatment, and recognition of the vast 
problem. I want to make sure that we are accurately and 
appropriately addressing this problem, and I will take to 
heart, if you will, take under advisement, your very astute 
analysis dealing with the vastness of compounds and subsets 
that we should address to make sure that we narrowly address 
these poisonous synthetic drugs, and not have a wide reach.
    With that, Mr. Chairman, thank you so very much. With that 
Mr. Chairman, I yield back, and I appreciate your time.
    Mr. Buck. Thank you, Ms. Jackson Lee. I now recognize the 
gentleman from Michigan, Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chair. And thank you to the 
witnesses for being here today. I want to particularly thank 
Mr. Eckhardt and Veronica for being here today, for your 
testimony. Like many of the folks in this room, I am a parent. 
I have a 16 year old son, and a 14 and a 10 year old. And this 
issue causes me great agony. And for you, my heart goes out to 
you and your wife. I pray for you and your family for what you 
have been through.
    I thank you for your courage to be here. It is incredible 
what you are doing, and thank you for raising awareness. And I 
intend to take your message back to my district, and certainly 
to my family. But I wondered if you might be able to share with 
us what you believe, in your experience so far, is the most 
effective method of raising awareness, and what is the most 
efficient method in curtailing the use of synthetic drugs?
    Ms. Eckhardt. May I speak?
    Mr. Bishop. Yes, please.
    Ms. Eckhardt. Thank you so much for having us here. 
Obviously, it is very difficult for Devin and I. Not only did 
we travel overnight from California, but we are so passionate 
about this subject. And laws take time to change. They 
obviously need to change now. But getting that public service 
announcement, which is now happening with the opiate and heroin 
epidemic, getting public service announcements out there, 
recognizing that these products are available in candy form, in 
liquid form, in the vapes, in the e-cigarettes, in the 
marijuana type leaf, getting that message out there to parents. 
They simply do not know.
    I said I wish I could carry--I have a book this big--that 
is full of stories, full of stories from people who have lost 
their children, either to death or to mental illness from 
using. People simply do not know. It needs to be taught in the 
classrooms. Teachers need to know. Physicians need to know. 
Nurses need to know. Counselors need to know. The public needs 
to know at large. And this is something that can be done 
immediately. Awareness, education, prevention.
    And I would like to also mention that if you are 13, 14, 
15, 17 years old, under 18 years old, and you become addicted 
to Spice, and it is very addictive, where do they go? There is 
not a place for an addicted child to get treatment, and this is 
a very serious issue needed to be discussed at another time. 
Thank you.
    Mr. Bishop. Thank you very much, Veronica, I appreciate 
your being here, and appreciate your testimony. Agent Milione 
and Officer Smith, I wondered if you might be able to address 
this issue. I, as a former prosecutor, have had an interaction 
with law enforcement over the years. K2 was an issue not too 
long ago. Hit the stores, it was in the local gas stations, at 
the party stores. I got a call from one of my local police 
chiefs, Chief Narsh from Lake Orion Police Department, who told 
me that he was trying to get it off the shelves but he could 
not do it because there was no legal authority to do that.
    How do we get ahead of this? What do we do to give you the 
tools in law enforcement to prepare for the next generation? 
And clearly, these folks that are selling them in the stores 
are selling them with knowledge that they are being used in an 
illicit way. They are not just bath salts or incense. It is 
being used by our youth in a way that is intended for some sort 
of high. How do we get ahead of this, and what can we do as 
Congress to help and give you the tools you need?
    Mr. Milione. Thank you very much for the question. As I 
mentioned before, we have already identified hundreds, not 
based on theory, but based on overdoses, deaths, law 
enforcement encounters, we are getting multiple every month. So 
now we are talking dozens every year. So, the most effective 
way to give immediate relief to our State and local partners 
and our Federal partners is get them into Schedule I. That 
would solve a couple of problems. It would give us the ability 
to get them out of those stores, to be able to stop it at the 
border.
    But more importantly, we would be able to increase the cost 
of those that are trafficking it--not using it, trafficking in 
it--in the United States, but then overseas, because they 
operate with impunity. That would be one fix.
    Another possible solution would have to do with that 
labeling. In the same way that with anabolic steroids, there is 
a bill that you have to have appropriate labeling. If there is 
false labeling, there may be some kind of a false labeling 
penalty that would increase the civil penalty, and tamp down 
the incentive for these retail stores, convenience stores to 
have this in their places of business. So those are a couple of 
ideas, but we would be more than happy to work on any, 
providing any technical assistance in that area.
    Mr. Smith. Representative, as Veronica spoke to it, PSA and 
getting the word out on the street. And I believe Mr. Buck or 
Mr. Eckhardt spoke to the fact of these kids are buying this 
legally in stores. And again, thinking it is a legal substance, 
they are not doing any of the hardcore street drugs that we 
used to see them do: cocaine, heroin, marijuana. They are not 
taking this out of de facto ramifications that come from using 
something that they buy at their convenience store for $5.
    Mr. Bishop. Thank you both very much. I wish we had more 
time on this. I mean, anything I can personally do and I know 
others are the same way. Anyway I can help, I would love to be 
part of that solution. Thank you, Mr. Chairman. I yield back.
    Mr. Buck. Thank you, and the Chair recognizes Ms. Chu from 
California for 5 minutes.
    Ms. Chu. Yes. Mr. Milione, the Controlled Substances Act 
provides for two mechanisms for controlling drugs and other 
substances. Congress can do it legislatively, or the DEA, in 
collaboration with the Department of Health and Human Services, 
can do it administratively. When the DEA takes an action to 
temporarily schedule a substance, retailers begin selling new 
versions of their products with new unregulated compounds in 
them. In your opinion, how effective is the current legislative 
framework?
    Mr. Milione. Certainly we appreciate all the tools that 
Congress has given us. The challenge in this space is that it 
is a reactive process, and it is a lengthy process, resource-
intensive process. And the same medicinal chemists, 
pharmacologists that do this analysis for DEA and work with our 
partners at HHS also travel the country. I think it is 65 
different Federal prosecutions under the Analogue Act, as 
experts.
    So it is a very reactive process. Scheduling temporarily 
takes, on average, three to 4 months, after harm has already 
occurred. Once we initiate that process, it is generally two to 
3 years by the time HHS can do their analysis. So when you pile 
on top the dozens that we are getting every year, on top of the 
hundreds that we have already identified, it is like pushing 
that proverbial massive rock up a hill.
    Ms. Chu. And what should Congress do to expedite the 
classification and scheduling of these synthetic drug 
analogues?
    Mr. Milione. I would be willing to work with your staff to 
talk specifics, provide some technical advice, anything that 
would either streamline that process, or give us some breathing 
room and get the ones that we have already identified onto 
Schedule I.
    Ms. Chu. Yes, I would love work with you on that.
    Mr. Milione. Yes, absolutely.
    Ms. Chu. Mr. Milione, in order to skirt Federal and State 
laws, many of these synthetic drugs are being labeled as not 
intended for human consumption, or legal in certain states. How 
are these claims affecting law enforcement's ability to 
prosecute synthetic drug-related crimes, and what could be done 
about this?
    Mr. Milione. Well that is the evil brilliance of some of 
the traffickers. They are going to look at the law, the 
Analogue Act, and they are going to create something and put 
that on the substance so that creates a defense for them. So 
now you have a battle for the experts when you prosecute them 
under the Analogue Act.
    So, one way that you could potentially fix that, that I 
mentioned a moment ago, is if you had some kind of a labeling 
requirement so that they are appropriately labeled. That would 
defeat that defense, but that is kind of in the realm of the 
technical assistance and advice or interaction that we could 
have to maybe talk about those in greater detail.
    Ms. Chu. Mr. Milione, a majority of these synthetic drugs 
have been manufactured and imported from China. What has the 
DEA been doing to combat the manufacturing of these chemical 
compounds?
    Mr. Milione. That is one of the biggest challenges, right? 
The manufacturers operate with impunity because the majority of 
these substances are not in Schedule I. Fortunately, we have a 
very strong and growing relationship with the Republic of 
China.
    In October of 2015, they scheduled 116 of these new 
psychoactive substances, these synthetics, and as a result of 
our cooperation with them, they provided leads with us to 
identify domestically where gatekeepers and--not cartel heads, 
but cartel distributors--would be in the United States, so that 
we could work under our laws here in the United States to bring 
them to justice.
    Ms. Chu. And how are these precursor chemicals being 
imported into the United States?
    Mr. Milione. They are being labeled as research chemicals. 
They are being, like any other contraband, mislabeled and then 
sent in. And unfortunately, the majority of them, we do not 
have the authority to stop them. We cannot help our partners at 
the CBP, Customs and Border Patrol, because the majority of 
them are not scheduled.
    Ms. Chu. And, Officer Smith, in the past several years, 
there has been an enormous increase in the variety and number 
of synthetic drugs available. The effects of the drugs can vary 
so greatly. As a first responder, what additional safety and 
health precautions do police officers have to take when 
approaching an individual suspected to be under the influence 
of synthetic drugs?
    Mr. Smith. Ma'am, from the law enforcement first responder 
stand point in general would be, law enforcement, fire, EMS, 
dealing with individuals on synthetic drugs, and I spoke to it 
earlier, it is similar to the effects of PCP on an individual. 
You know, they are very unpredictable to deal with. They can be 
very passive at one moment, and with the flick of a light 
switch per se, they are extremely agitated, they are very 
violent, and we are getting officers and firefighters and EMS 
responders hurt from the synthetic drugs.
    Ms. Chu. Thank you. I yield back.
    Mr. Buck. Thank you. And the Chair recognizes Mr. Labrador 
from Idaho for 5 minutes.
    Mr. Labrador. Thank you Mr. Chairman, and I will yield back 
1 or 2 minutes to Mr. Bishop who has a few more questions.
    Mr. Bishop. Thank you, Congressman Labrador. We have got a 
thousand questions here and a very small amount of time, but I 
wondered if I might ask Mr. Milione--the DEA's Project Synergy 
found that millions of dollars in the sales of these synthetics 
were being funneled back to the Middle East, for what I assume 
to be terrorism purposes, or funding terrorism. Can you comment 
on that, and share more about that?
    Mr. Milione. Sure. Project Synergy, it was a multi-year, 
multi-agency investigation, and you are right, about millions 
and millions, hundreds of millions in proceeds were going back 
to the Middle East; Yemen, Syria, Lebanon. We continue to 
explore that, we work with our partners at the FBI, and our 
Special Operations Division, which is a multi-agency 
coordination center.
    But that operation resulted in the seizure of almost 7,000 
kilograms of cathinones, cannabinoids, and a number of 
successful--hundreds of prosecutions. But we are still 
exploring that, and I would not be able to speak to some of the 
threads of those investigations on the money.
    Mr. Bishop. One follow-up, a quick follow-up--we know that 
this is not necessarily manufactured here, that in many cases, 
it comes from China, overseas somewhere. How is the trafficking 
handled when it gets to the Untired States? Who does it? 
Cartels or----
    Mr. Milione. Well, on both the synthetic cannabinoid, 
cathinone side, but on the fentanyl analogues, which are the 
deadly, much more potent than heroin synthetic, there is 
several ways, but the primary way is, manufactured in China, 
sent into Mexico. Mexican cartels now are exploiting and 
capitalizing on the opioid epidemic in the country, obviously 
with their heroin trafficking, and they are taking the 
synthetic fentanyl, mixing it with heroin and other substances, 
and sending it across the border. Southwest border, couriers 
taking it into Lawrence, Massachusetts. Really, any part of the 
country is being touched.
    But you can also get it directly from China. You can order 
it over the Internet. You can get this substance sent to you, 
delivered directly to your home. You can mix it with other 
compounds and then distribute it in the United States. It is a 
terrible treacherous world that they are creating.
    Mr. Bishop. Thank you very much for your testimony. I yield 
back to Congressmen Labrador.
    Mr. Labrador. Thank you, Mr. Bishop. And thank you all for 
being here today. I applaud the Chairman for calling this 
hearing and taking steps to fight this epidemic.
    Mr. Eckhardt, I want to express to you--I have five 
children, and I cannot even imagine what you are going through, 
and I want to express my deepest condolences to you, to your 
wife, and to your entire family for your tragic loss. I am sure 
it is difficult to be here and testify, but I greatly admire 
the courage that you have to testify here and to help us to 
more fully understand the true impact of these drugs, you know, 
on our society.
    Mr. Milione, I want to follow up on some of the questions 
that were being asked. To your knowledge, is DEA working with 
Customs and Border Protection to interdict these shipments?
    Mr. Milione. We are working with them as closely as we can 
and with the tools that we have, absolutely.
    Mr. Labrador. Do you have cooperative agreements in place?
    Mr. Milione. I do not know as far as the agreements, but I 
am sure there are MOU's that exist. But there is a healthy 
working relationship with CBP.
    Mr. Labrador. Yeah. And you think that working relationship 
is functioning?
    Mr. Milione. I believe so, in this context, yes.
    Mr. Labrador. Can you estimate the number of prosecutions 
of synthetic drug manufacturers and distributors that have 
occurred in the United States?
    Mr. Milione. I am sorry, I missed that.
    Mr. Labrador. Can you estimate the number of prosecutions 
of synthetic drug manufacturers and distributors that have 
occurred in the United States?
    Mr. Milione. It would be very hard for me to come up with a 
hard number. I would be happy to take that back and get that to 
you.
    Mr. Labrador. Okay. Mr. Smith, how has your department had 
to shift its drug enforcement policies in order to combat the 
influx of synthetic drugs?
    Mr. Smith. The combating of the synthetic drugs is typical 
enforcement of any other law. The fact that we are running in a 
problem the same as Mr. Malone, and as Dr. Nichols testified 
to, is the ever-changing chemical make-up of these synthetic 
drugs for prosecution. Was made by the DEA and Dr. Nichols, 
just them tweaking one chemical atom of that synthetic drug 
changes the enforcement aspect on law enforcement's side, due 
to the fact of now, you have a chemical drug that was actually 
scheduled, now they change an atom, it is no longer that 
chemical, it is a new chemical, so therefore it cannot be 
prosecuted.
    Mr. Labrador. Okay. Thank you. Mr. Eckhardt, is there 
anything that you have not been able to tell us, that we have 
not asked you, that you would like to say?
    Mr. Eckhardt. How much time do you have? Yeah, I think one 
of the things that occurs to me as this conversation goes on 
is, I would say at what price tag? At what price tag are 
changes being made, or being delayed? From a parent's 
perspective, from the general public's perspective, we would 
feel like, and the many, many hundreds of thousands of people 
that we have communicated with would feel like if something 
looks like a duck, it walks like a duck, it quacks like a duck, 
let's call it a duck.
    We are down at the molecular atom structure, and because 
they change one molecule, it skirts our laws, and it is 
available. How many young people have to lose their lives to 
death or permanent disability? What is the impact on our 
community and our society as a result of that? And at what 
price tag are we preserving the ability to research these, or 
to talk about them or to study trends and statistics before we 
actually do something? Let's do something. If it is not the 
right thing, we can always change it down the road as we learn 
more.
    But I think parents and the general public out there need 
to be informed about this. We had no idea. We were not parents 
with our heads in the sand. We talked to our children about 
drugs and the perils of what they face as youth growing up in 
today's world. We did not have a clue about what is going on, 
and the more we learn, the more terrifying it gets to be a 
parent in today's world. We need help from our government.
    Mr. Labrador. Thank you. I yield back.
    Mr. Buck. I thank the gentleman. The Chair recognizes the 
Chair of the full Committee, Mr. Goodlatte from Virginia.
    Mr. Goodlatte. Well thank you Mr. Chairman, and I apologize 
for not being able to be with you for the entire hearing. I did 
appreciate in particular your testimony, Mr. Eckhardt, and this 
brochure.
    I have, in my experience here in the Congress, seen a few 
other people who basically dedicated their lives to trying to 
make their son or daughter's life meaningful, and I know that 
is exactly what you are trying to do in dealing with a horrific 
loss like you are. So, I very much commend you for that.
    I do not know how much your foundation's research has given 
you about this, but--and it may have been asked already--but 
some of these products like K2 and Spice and Chronic that I see 
on the bottom of the brochure here--they look like, you know, 
regular commercial products, and that increases, I am sure, the 
opinion that people think that ``Hey this must be legitimate. 
It is for sale here in this store.''
    What do you know about those companies? Are they legitimate 
companies that make other products, or are they just totally 
illegal operations that have this stuff mysteriously appear in 
various stores for people to buy?
    Mr. Eckhardt. Yeah, to the best of our understanding, there 
is no legitimate use for the chemicals, and the businesses that 
are proliferating these products out there in marketplace are 
not selling legitimate.
    Mr. Goodlatte. If you were to sue them, they would just 
disappear in thin air? They are not----
    Mr. Eckhardt. In the case with our son, we tried to 
discover who was the manufacturer, and were unable to get that, 
even though we had the packet itself. So there is a deep web, 
and it is not easy to go and identify. These are not products 
that are typically being made in some manufacturing plant with 
the name of the company out front.
    Mr. Goodlatte. Do you think they are made in the U.S. or 
made outside and shipped in?
    Mr. Eckhardt. Our understanding is both, both.
    Mr. Goodlatte. And how much cooperation did you get from 
law enforcement, from the DEA and others, in trying to do that 
research up that chain to find out who made it and where they 
made it?
    Mr. Eckhardt. From our perspective, the law enforcement and 
the people around us were very supportive.
    Mr. Goodlatte. But they were not able to help you go up the 
chain and find out who actually made that product that was in 
that bag?
    Mr. Eckhardt. Right.
    Mr. Goodlatte. Mr. Milione, you testified about how potent 
Fentanyl is even if it is just absorbed through the skin. What 
harm could this substance do if dispersed over a crowd of 
people?
    Mr. Milione. It could kill them. I mean it would depress 
their--I am not a scientist, obviously, but we fortunately have 
much smarter people than myself on our staff that are 
scientists. And it will depress your respiration and it could 
cause death. So as was talked about, a very miniscule amount 
can cause death.
    So one of the challenges obviously for the unsuspecting 
user is that they could be taking Fentanyl and not realize that 
it is Fentanyl and overdose. But then for my brothers and 
sisters in law enforcement, the first responders, and within 
the DEA, when we go in on warrants, it is a very, very 
difficult situation. Every time you encounter heroin now, you 
have to assume it is Fentanyl, because if you inhale it, it 
becomes airborne, you get it on your skin, you could have that 
kind of a reaction. So that is something that law enforcement 
all over the country is--and EMS, firefighters, everyone is 
concerned with that.
    Mr. Goodlatte. And that is added? Heroin is cut with that, 
and some other things are cut with that in order to increase 
the addictive nature of it? Is that----
    Mr. Milione. Increase its potency, so it can be added----
    Mr. Goodlatte. That develops a reputation, people go back 
to it because ``Hey, that was really''----
    Mr. Milione. Well that is kind of the tragic part of it, 
right?
    Mr. Goodlatte. Yeah.
    Mr. Milione. Word gets out that there is a very strong--and 
traffickers will do that. They will spike something very hot, 
so that when it goes out, unfortunately you will have overdose 
deaths. Word will travel, and that particular X product is 
very, very potent, so there will be a desire for that product. 
So it is mixed with heroin, it is mixed with other substances. 
It really can be mixed with anything, just to kind of expand 
its commercial viability.
    Mr. Goodlatte. Adding that to some other product, as 
dangerous as the other product might be, like heroin--adding 
that to it is almost tantamount to knowing you are going to be 
committing a certain number of murders as that is distributed 
amongst the populous.
    Mr. Milione. That is----
    Mr. Goodlatte. Unavoidable that a significant quantity of 
this in the hands of the population is going to result in a 
certain number of deaths.
    Mr. Milione. That is correct, and we have had success.
    Mr. Goodlatte. You have got to know that going in, right?
    Mr. Milione. Yes, and we have had success with death 
investigations post-overdose.
    Mr. Goodlatte. How difficult is it to prosecute the 
manufacturers of these synthetic drugs?
    Mr. Milione. When you were speaking earlier--here is the 
biggest challenge. The biggest challenge is it is reactive. Our 
success with any of the biggest cartels, the most violent 
insulated groups, has been with a proactive infiltration. To 
get them indicted, get them convicted, arrest them in the 
United States, or bring them--extradite them from another 
country.
    The problem is in a reactive case, the harm has already 
occurred, so now you are trying to rebuild that. It is 
challenging, especially when the substances aren't necessarily 
Schedule I substances.
    Mr. Goodlatte. Thank you. My time has expired. Thank you, 
Mr. Chairman.
    Mr. Buck. This concludes today's hearing. Thanks to all of 
our distinguished witnesses for attending. Without objection, 
all Members will have 5 legislative days to submit additional 
written questions for the witnesses or additional materials for 
the record. The hearing is adjourned.
    [Whereupon, at 11:21 a.m., the Subcommittee adjourned 
subject to the call of the Chair.]

                                 [all]
</pre></body></html>
